       TESTIMONY OF HAROLD W. GEISEL
         DEPUTY INSPECTOR GENERAL
        U.S. DEPARTMENT OF STATE AND
   THE BROADCASTING BOARD OF GOVERNORS

                BEFORE THE


     HOUSE COMMITTEE ON FOREIGN AFFAIRS


                     ON


WATCHING THE WATCHERS: THE NEED FOR SYSTEMIC
  REFORMS AND INDEPENDENCE OF THE STATE
       DEPARTMENT INSPECTOR GENERAL


                APRIL 05, 2011




                      1
      Thank you Chairman Ros-Lehtinen, Ranking Member Berman, and
members of the committee for the opportunity to testify today.
      Since being appointed by Secretary of State Rice during the summer
of 2008, I have often told Office of Inspector General (OIG) employees that
we have the best jobs in the Federal Government because we are paid to
tell the truth. Our body of work, most of which is available to taxpayers on
our Web site, is the true objective measure of our independence and
effectiveness. We are the Department’s best friend because we tell it what
it needs to hear, which is not always what it wants to hear. When we
perform oversight, we call it as we see it. OIG’s reports, such as the recent
inspection of Embassy Luxembourg and the inspection of Embassy Kabul
with its more than 100 recommendations, and our audits of the new
embassy construction in Baghdad, State Department actions regarding the
December 25 attempted terrorist bombing, and passport snooping by
Department employees clearly demonstrate that OIG is an independent
and responsive oversight organization.
      In fact, during my time in OIG, there has been a steady increase in
requests from Congress and State Department officials for OIG to look at
issues around the world.       They know OIG is an independent oversight
organization that will produce a timely, thorough, and honest report whether
it is an audit, inspection, evaluation, or report of investigation.
      OIG’s track record over the past 3 years speaks for itself. Between
the time that the Government Accountability Office (GAO) report was
issued in 2007 and the close of FY 2010, the number of OIG reports issued
annually increased from 107 to 157, the number of investigations opened
increased from 36 to 101, OIG Hotline complaints processed grew from
527 to 1,354, OIG subpoenas issued increased from 0 to 25, and the
                                        2
number of contractor suspension and debarment actions increased from 0
to 5 (4 in the Office of the Procurement Executive and 1 in the Directorate
of Defense Trade Controls). We also made our oversight efforts more
transparent by making our Web site more accessible and posting more
than 400 reports on it, back to January, 2005.
      Since GAO’s 2007 report, OIG has substantially expanded its
oversight in the Middle East, South and Central Asia, and, in particular,
Afghanistan. We established a Middle East Regional Office (MERO) and
Middle East Investigations Branch (MEIB), which provide boots on the
ground at five overseas locations. Since August 2009, MERO has issued
nine reports on contract and performance evaluations and limited-scope
reviews of State Department programs in Afghanistan, and expects to issue
one more report on the operations and maintenance support contract in
Iraq. MERO also plans to issue its second report on the status of the Iraq
Transition in the coming weeks. Other field work is now under way for
several reviews of Bureau of Diplomatic Security programs and contracts
concerning antiterrorism assistance within Iraq, Pakistan, and Afghanistan.
In addition, the Office of Audits recently began a joint audit with the
Department of Defense OIG on Afghanistan National Police Force training
and another joint audit with the Special Inspector General for Afghanistan
Reconstruction on issues related to the civilian uplift program.
      Our investigative commitments have expanded similarly. From FYs
2004 to 2008, the Office of Investigations (INV) reported only four active
investigations related to Iraq and the greater MERO region, none of which
were performed in Afghanistan. INV, in partnership with the International
Contract Corruption Task Force, now has 26 active investigations in the
MERO region, 10 of which relate to Afghanistan.
                                      3
     In 2010, INV successfully worked with the Office of the Procurement
Executive to achieve suspension and debarment actions against five State
Department contractors, three of which pertained to investigations in
Afghanistan. This result compares favorably to the single debarment action
reported in the previous 5 years combined. We intend to encourage this
upward trend with continuing investigations and an audit of the State
Department and the Broadcasting Board of Governors (BBG) Suspension
and Debarment programs by OIG’s Office of Audits, which will start in April.
All of these examples provide an objective measure of OIG’s commitment
to independent and robust oversight.
     GAO has issued several reports about OIG and its predecessor
organizations, nearly all of which were issued more than two decades ago.
GAO’s latest report in 2007 examined OIG operations during FYs 2001
through 2005.    I would like to discuss the actions we have taken in
response to the five recommendations GAO issued in that report.

1. GAO recommended that State OIG reassess the proper mix of audit
and inspection coverage for the State Department’s high-risk areas
and management challenges.

     Our activities are global in scope, supporting the highest priorities of
the State Department. Our oversight extends to the State Department’s
and BBG’s 60,000+ employees and more than 270 missions and other
facilities worldwide, funded through combined annual appropriations of
more than $50 billion.
     During my tenure in OIG, we have consulted on a regular basis with
key stakeholders in the State Department and Congress regarding
oversight of high-risk areas and management challenges. In January 2010,
                                       4
the Office of Audits (AUD) reorganized from a “matrixed” organizational
structure to a “divisional” organizational structure. Seven divisions were
established in order to gain functional area expertise, contribute to an audit
planning process that included high risk/cost programs, and operate in a
more efficient and accountable manner.
      The assistant inspectors general (AIGs) and their staffs engage in
ongoing discussions about the proper mix of audits, inspections, and
reviews as they plan their work. As GAO noted, Section 209 of the Foreign
Service Act of 1980 requires OIG to inspect and audit each post, bureau,
and other operating unit of the State Department at least once every 5
years. Our methodology for investing our resources includes a risk
management approach that ensures all congressional and executive
mandated audits and inspections are performed and that our remaining
discretionary audits and inspections cover high-cost programs, key
management challenges, and vital operations.
      With the help of Congress, OIG’s resources have increased since
2008 after more than a decade of flat-line budgets. At the same time, the
number, size, and complexity of missions abroad have expanded greatly
over the past few decades. Our audits assess State Department and BBG
efforts to achieve results-oriented management, identify major
management challenges and recommend improvements.
      In October 2011, MERO will be merged into the Office of Audits,
making the Office of Audits the largest component of State OIG with over
90 full time employees (FTEs), as well as additional contractors who serve
as auditors/analysts. We anticipate that the number of audits will
substantially increase after the incorporation of MERO into AUD.


                                      5
     Conversely, our inspections cover three broad areas consistent with
Section 209 of the Foreign Service Act of 1980: policy implementation;
resource management; and management controls. The OIG community
has long recognized the need to provide timely feedback to program
managers and to review highly technical matters. The inspection and
evaluation function fits that need. The inspection function is growing in
number and size within the OIG community as noted in a January 2011
report by the Council of Inspectors General on Integrity and Efficiency
(CIGIE) on “Growth and Development of the Inspection and Evaluation
Community: 2010 Survey Results.” The Inspector General Reform Act of
2008 acknowledges the inspection and evaluation role of OIGs separate
from the audit and investigative roles, and CIGIE updated the Quality
Standards for Inspections and Evaluation in January 2011.
     Our inspections have resulted in organization restructuring, improved
processes and accountability, more efficient use of resources, better
leadership, and enhanced security. While continuing with inspections of
individual posts and bureaus, inspections identify systemic issues and best
practices (now featured on our intranet site and accessible by the
Department), conduct more thematic reviews, and provide a quick
response capability to address issues raised by the Hill or senior
management.
      Some examples include de-mining programs in Iraq and Afghanistan,
Chief of Mission oversight of PEPFAR programs, controls over the Youth
Exchange Program, Review of the Selection Board Process, Support for
staff assigned to high stress posts, processes to assess leadership and
management of Department posts and bureaus, oversight of “R and R”
travel, Haiti earthquake communication, and Kenya Constitution reform.
                                      6
      OIG’s mix of oversight coverage is effective because our offices
complement one another’s efforts in an efficient manner. During each
inspection cycle, OIG teams examine a wide cross section of issues at
multiple posts and bureaus. Inspection teams give their draft reports to the
chiefs of mission before they leave post, which often prompts compliance
to begin immediately. If a team discovers an area that demands a deeper
“drill down” audit or investigation, it refers the matter to the auditors or
investigators. For example, an Office of Inspections (ISP) team discovered
during its inspection of Embassy Baghdad that payment of overtime was an
issue that required additional oversight. An audit team followed the
inspection and produced major findings and recommendations that resulted
in changes to overtime policies, which in turn led to better controls in place
at the embassy. There are also frequent examples where individual
inspection teams have referred matters to INV.

      Finally, the State Department relies on the deterrent effects and
timely, constructive recommendations and evaluations that flow from OIG’s
inspection process. In short, OIG’s oversight process is efficient, effective,
and in compliance with GAO’s first recommendation.

2. GAO recommended that OIG should include inspections performed
by the State IG’s Office of Information Technology in its internal
quality review process.

      The Office of Information Technology was discontinued as a separate
office in January 2008, with information technology (IT) audit staff
reassigned to AUD and IT inspection staff reassigned to ISP. Because the
IT inspection function is now a part of ISP, it is included in the internal

                                        7
quality review process. Thus, OIG has complied with GAO’s second
recommendation.

3. GAO recommended that the State IG work with the Secretary of
State to “Develop a succession planning policy for the appointment of
individuals to head the State IG office in an acting IG capacity that is
consistent with the IG Act regarding State IG appointment and
provides for independent coverage in the event of delays between IG
appointments. The policy should prohibit career Foreign Service
officers from heading the State IG office in an acting IG capacity and
specify within the IG’s own succession order that acting IG vacancies
are to be filled by eligible personnel without State Department
management careers.”

     OIG was authorized two deputy inspectors general (DIGs): a Civil
Service employee and a Foreign Service officer. We agree with GAO’s
concern about career Foreign Service officers serving as acting IG. OIG
has taken action since GAO’s 2007 report to help ensure that Foreign
Service officers do not head the State IG in any capacity. The previous
Foreign Service acting IGs all served as the DIG at the time they became
the acting IG. The Foreign Affairs Manual (1 FAM 052.2) was amended
after GAO’s report so that the principal DIG was a Civil Service employee
and “First Assistant” for purposes of The Federal Vacancies Reform Act of
1998. The Foreign Service DIG position in OIG was vacant for 5 years
and, most important, it was abolished on January 22, 2011.

     We still do not agree, however, with the final part of GAO’s
recommendation that acting IG vacancies be filled by eligible personnel

                                     8
without State Department management careers. As OIG stated in its 2007
response to GAO, to eliminate from consideration all Civil Service officers
with State Department management careers would unduly restrict OIG’s
ability to consider the broadest number of highly qualified candidates. In
fact, the Foreign Service Act (22 U.S.C. § 3929 (a) (1) lists “knowledge and
experience in the conduct of foreign affairs” as a qualifying factor for
potential IGs. In sum, we believe we have complied with all but the last
part of GAO’s third recommendation, which we do not agree is in the best
interests of OIG or the Department.

4. Regarding ISP, the GAO recommended that OIG “develop options
to ensure that State IG inspections are not led by career Foreign
Service officials or other staff who rotate to assignments within State
Department management. Approaches could range from the State IG
limiting its inspection activities to a level that is supportable without
reliance on staff who routinely rotate to management offices, to
permanently transferring or hiring additional staff, or FTEs, along with
associated resources for the State IG office to eliminate the need to
rely on Foreign Service and other rotational staff to lead inspections.”

      We understand that OIG’s policy of using active and retired
ambassadors (reemployed annuitants) to serve as inspection team leaders
might raise a concern about the appearance of independence. That
theoretical concern is greatly outweighed, however, by the overriding need
to use inspectors with the requisite experience, expertise, and Senate-
confirmed ambassador status to lead inspections of U.S. overseas
missions. The House Committee on Foreign Affairs report on Section 209
of the Foreign Service Act of 1980 stated it well: “The Inspector General
                                       9
must be served, on the one hand, by individuals who are trained in
auditing, …and, on the other hand, by individuals who possess foreign
policy training and knowledge of the Foreign Service.”
      Any potential concern is also mitigated by OIG’s transparency, vetting
procedures, and recusal policies. All Foreign Service and Civil Service
personnel are required to sign a statement of independence before working
on any project. In addition, usually only two of the seven inspection teams
are led by active-duty Foreign Service ambassadors. The others are led by
reemployed annuitants. Moreover, all inspection team leaders report to
and are rated by an AIG for inspections who is at the Civil Service Senior
Executive Service (SES) level.
      The preface to the January 2011 CIGIE Quality Standards for
Inspections and Evaluations recognizes the unique needs of different
agencies: “The inspection function at each Department/Agency is tailored
to its unique mission.” It then specifically contrasts State OIG’s inspection
function with that of other agencies by noting that, “For example, at the
Department of State, inspections focus primarily on the adequacy of
management of programs and activities in each of the American embassies
and consulates, as well as in each bureau or major operating unit of the
Department ….” Similar language has existed in the Quality Standards
preface since 2005.
      OIG needs the experience and expertise of its ambassadors to help
design and implement inspections that are tailored to the unique mission of
the State Department. This level of expertise and experience is particularly
important if the chief of mission has little policy experience and/or
leadership skills. Team leaders also prepare Inspectors Evaluation
Reports on senior officials at inspected posts and domestic bureaus.
                                      10
Those evaluations have been key to performance boards’ review of
personnel files for promotions, awards, or consideration for onward
assignments. It is critical that they be prepared by former ambassadors
who have the credentials to provide credibility to the reports.
      In addition, the ratio of Foreign Service officers to Civil Service
employees in ISP is relatively low. For example, of the 64 direct-hire staff
members currently employed in ISP, only 17 are Foreign Service officers,
and most retire after their assignments with OIG. These senior officers are
subject matter experts in consular, political-economic, public diplomacy, or
management operations. As such, they have the necessary credibility with
the inspected entities to make recommendations to improve their programs
or operations.
      GAO has also expressed concern about the possibility that a Foreign
Service officer/inspector’s desire to receive favorable follow-on
assignments might influence his or her objectivity. To the best of my
knowledge, there is not a single case that any such behavior has ever
occurred. This might be partially explained by the fact that there are
checks and balances built into OIG’s policies and procedures, as well as in
CIGIE Quality Standards. Also, as stated previously, a Civil Service SES
rates the performance of ISP team leaders.
      All of these checks and balances help ensure that our inspectors
perform their oversight objectively and independently. Once again,
however, the best objective proof of our independence can be found in our
reports. In short, we were authorized by statute, for good reasons, to use
Foreign Service officers in our inspections, and thus we do not concur with
GAO’s fourth recommendation.


                                       11
5. Finally, GAO recommended that “in order to provide for
independent investigations of State Department management and to
prevent duplicative investigations, we recommend that the State IG
work with the Bureau of Diplomatic Security (DS), the Office of
Management, and the Secretary of State to develop a formal written
agreement that delineates the areas of responsibility for State
Department investigations. Such an agreement would, for example,
address the coordination of investigative activities to help ensure the
independence of internal departmental investigations and preclude
the duplication of efforts.”

      We agreed with the wisdom of this recommendation and signed a
Memorandum of Understanding with the Department of State effective late
last year. Previous IGs had tried to negotiate such an agreement, on and
off, since 2001. Our Memorandum of Understanding (MOU) delineates the
areas of responsibility and, among other things, ensures the independence
of OIG investigations and precludes duplication of efforts, thereby making
OIG compliant with GAO’s fifth and final recommendation. In signing the
MOU, both parties agreed to provide timely notification to each other of
information relevant to their respective missions.
      This cooperation is being implemented through the following means:
regular communication concerning investigative referrals and relevant
investigative information between DS Division Chiefs and OIG Special
Agents in Charge by email, telephone and personal meetings;
bi-monthly meetings between the Deputy AIG for Investigations and the DS
Office Director for Investigations and Counterintelligence, who is
responsible for all DS investigations, wherein new case information is

                                      12
shared; communication channels were established by the Deputy AIG for
Investigations with the Training and International Programs Directorates of
DS; and meetings occurred between the Assistant Inspector General for
Investigations (AIG-I) and each Directorate Head in which their full support
was received.
      Furthermore, quarterly meetings are occurring between the AIG-I and
the Assistant Director for Domestic Operations, the two signatories on the
MOU. Regular communications are occurring between the IG and the
Assistant Secretary for DS.
      Discussions are underway concerning cross checking of investigative
subjects, whereby each organization is contacted to cross check and de-
conflict prior to an investigation being initiated. In addition, DS has agreed
to add OIG INV as a presenter during their formal training course that all
DS agents attend prior to their departure for an overseas assignment, to
educate all overseas DS agents of the OIG investigative mission and
associated, requisite reporting.
      Finally, when DS refers information sufficient to consider opening a
preliminary investigation to OIG INV, it is processed through the Hotline
intake system like all other referrals/allegations, and is assigned to an
investigative division for further review. DS is notified if INV determines it
does not merit OIG action.
      INV is working with CIGIE Investigative Peer Review points of contact
to ensure they review the procedures implemented pursuant to this MOU
for functionality and effectiveness during each recurring review. The overall
intent of the MOU is to promote the effectiveness of both organizations in
their service to the Department and U.S. Government.


                                       13
     Once again, thank you Madam Chairman and Ranking Member
Berman for the opportunity to appear today. I would be pleased to take any
questions you have at this time.




                                    14
